                Federal Tax Deposit Penalties Have Been
               Significantly Reduced, but Additional Steps
                Could Further Reduce Avoidable Penalty
                              Assessments

                                 September 2005

                       Reference Number: 2005-30-136




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   September 2, 2005


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                     ENFORCEMENT



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Federal Tax Deposit Penalties Have Been
                                    Significantly Reduced, but Additional Steps Could Further
                                    Reduce Avoidable Penalty Assessments (Audit # 200430016)


      This report presents the results of our review of Federal Tax Deposit (FTD) penalties
      assessed and abated by the Internal Revenue Service (IRS). The overall objectives of
      this review were to determine whether current studies and workgroups were effectively
      addressing FTD compliance and issues raised by the IRS Taxpayer Advocate Service
      (TAS), whether recent changes were effective in improving FTD compliance, and
      whether other changes to the FTD penalty program could further improve compliance or
      reduce taxpayer burden.
      In summary, there are specific rules regarding the timing and methods for making FTD
      payments. If payments are not made timely or correctly, the IRS imposes FTD
      penalties. These rules are considered by many to be complex and confusing. The IRS
      TAS has repeatedly cited concerns regarding this area of tax administration. We
      performed computer analyses of taxpayer accounts with FTD penalties assessed for
      Tax Year (TY) 2003 on the IRS Business Master File.1 Our preliminary analysis
      identified over 1.4 million returns with FTD penalties assessed totaling $3.4 billion.
      The number of FTD penalties assessed and subsequently abated has declined
      significantly. The IRS has taken steps to reduce both the number and dollar amounts of
      assessed and abated FTD penalties. It has developed notices to inform taxpayers of
      changes in deposit requirements as withholding and employment tax liabilities increase,


      1
       The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
      employment taxes, income taxes on businesses, and excise taxes.
                                                         2

and has implemented a one-time penalty abatement program for taxpayers that
voluntarily use the Electronic Federal Tax Payment System for 1 full year.
The TAS reports cited the complexity of the FTD rules as a contributing factor to the
high rates of FTD penalty assessments and abatements. We agree that these rules are
complex and hard to understand and most likely contribute to the number of penalties
assessed. However, our review of a judgmental sample of 194 penalties assessed on
the TY 2003 Employer’s Quarterly Federal Tax Returns (Form 941) indicated complexity
was not the primary reason for many FTD penalty assessments. Of the 194 taxpayers
with penalties, 183 had either a history of paying correctly or other indicators that they
knew the deposit requirements. Most of these taxpayers just paid late or paid the tax
with their returns instead of making timely and required FTD deposits.
The IRS currently has a program in place that helps avoid assessment of unnecessary
FTD penalties on certain returns that do not have valid liability information included with
them. Penalties on these returns would normally be computed by averaging the
taxpayers’ liabilities over the quarter. Instead of making the averaged penalty
assessment, the IRS, in certain cases meeting its criteria, issues a Computer Paragraph
(CP) 207 Notice2 to the taxpayers asking for additional information to help avoid the
penalty assessment. However, the criteria for this program are limited and do not
necessarily identify all the larger-dollar cases.
The IRS Office of Penalties and Interest has developed and forwarded two Requests for
Information Services to the IRS Chief Information Officer to expand this program to
include significantly more of the averaged penalties. These steps should significantly
reduce the large penalty assessments and abatements. However, we believe the IRS
should take additional steps to further reduce the assessment/abatement problems.
We reviewed the 2,000 largest penalties assessed on Forms 941 in TY 2003. The
penalties totaled almost $1.12 billion. Approximately $1.05 billion (94 percent) of that
amount was abated as of April 26, 2005. Since approximately 26 percent of the
2,000 largest-dollar penalties we reviewed did not meet the criteria for the
CP 207 Notice, but instead involved penalties computed based on apparently valid
information filed with the returns, the IRS should consider developing a notice similar to
the CP 207 Notice that will apply to these cases. Criteria for this notice would have to
be based on research of the characteristics of these cases, including the amount of the
penalties. In discussions with us, the TAS agreed with this concept but believes the IRS
needs to make some improvements to the CP 207 Notice before expanding the
program.
The IRS should also determine why certain taxpayers repeatedly incur and pay FTD
penalties and take steps to change this trend. We identified more than
87,000 taxpayers that had FTD penalties assessed in 9 or more of the 12 quarters

2
  Computer-generated notices and letters of inquiry are mailed to taxpayers in connection with tax returns. A
CP 207 Notice gives notification of impending FTD penalty assessments to be made without a schedule of
liabilities.
                                            3

during TYs 2001 through 2003, including 20,893 taxpayers with penalties assessed in
all 12 quarters. We reviewed a statistical sample of accounts for 102 of these
20,893 taxpayers and found that 60 percent paid these penalties each quarter. The
penalties assessed averaged $1,805 per quarter or $21,659 over the 3-year period.
We recommended the Director, Office of Penalties and Interest, Small Business/
Self-Employed (SB/SE) Division, work with appropriate staff from the offices of the
Commissioners, Large and Mid-Size Business Division, SB/SE Division, and Wage and
Investment Division to (1) address the TAS’ concerns with the CP 207 Notice,
(2) ensure the steps proposed by the IRS Office of Penalties and Interest to expand the
CP 207 Notice reviews are implemented, and (3) commission a research project with
the objective of identifying other large FTD penalties that are likely to be reversed and
developing procedures similar to those used with the CP 207 Notice. We also
recommended these officials commission a research project to identify taxpayers that
incur and timely pay FTD penalties on a recurring basis with the objective of
determining the cause and developing a strategy to reduce assessment of repeat
penalties for this taxpaying segment.
Management’s Response: IRS management agreed with our recommendations. They
have enhanced the programming for the CP 207 Notice generation process and
developed a new CP 207L Notice for proposed penalties of $100,000 or more.
Management’s response addresses cases meeting the criteria for the CP 207 Notice
(no valid liability information included on the return) but does not address cases based
on apparently valid information filed with the returns, as recommended. On
August 12, 2005, the Office of Penalties and Interest requested a copy of the data
reviewed in our audit and will study those data for characteristics of other cases that
may benefit from a notice similar to the CP 207 Notice. In addition, the Office of
Penalties and Interest and the TAS plan to review the effectiveness of the revised
CP 207 Notice and new CP 207L Notice in mid-2007 when they will have 4 quarters of
posted information available. Therefore, we concur with the corrective action proposed
by the IRS.
The Director, Office of Penalties and Interest, will also commission a research project to
identify taxpayers that incur and timely pay FTD penalties on a recurring basis,
determine the cause(s) of this behavior, and develop a strategy to reduce repeat
penalty assessments for this taxpaying segment. Management’s complete response to
the draft report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Curtis
Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-3837.
            Federal Tax Deposit Penalties Have Been Significantly Reduced, but
           Additional Steps Could Further Reduce Avoidable Penalty Assessments




                                                  Table of Contents


Background ............................................................................................... Page 1
The Number and Dollar Amounts of Federal Tax Deposit Penalties
Assessed and Subsequently Abated Have Declined Significantly ........... Page 3
The Internal Revenue Service Has Implemented Programs to
Help Reduce Deposit Penalties for Taxpayers Having Changes in
Their Deposit Requirements...................................................................... Page 5
The Internal Revenue Service Is Implementing a One-Time Penalty
Abatement for Taxpayers Who Voluntarily Use the Electronic Federal
Tax Payment System for 1 Year ............................................................... Page 6
Taxpayers Responsible for Making Timely Payments Failed to Do So ..... Page 6
The Internal Revenue Service Should Review Potential Large-Dollar
Federal Tax Deposit Penalties Before Making Actual Assessments ......... Page 7
         Recommendations 1 through 3:.....................................................Page 9

The Internal Revenue Service Should Determine Why Certain
Taxpayers Repeatedly Incur Federal Tax Deposit Penalties and
Take Steps to Change This Trend ............................................................ Page 10
         Recommendation 4: .......................................................................Page 11

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Outcome Measures............................................................ Page 18
Appendix V – Federal Tax Deposit Penalty Rules and Percentages......... Page 19
Appendix VI – Federal Tax Deposit Rules – Publication 15
(Circular E), Employer’s Tax Guide ........................................................... Page 20
Appendix VII – Management’s Response to the Draft Report ................... Page 27
         Federal Tax Deposit Penalties Have Been Significantly Reduced, but
        Additional Steps Could Further Reduce Avoidable Penalty Assessments

                                Business taxpayers generally pay their Federal payroll taxes
Background
                                by periodically depositing payment amounts in a bank or
                                other financial institution that is authorized to accept these
                                payments. This type of payment is called a Federal Tax
                                Deposit (FTD). FTDs account for most of the revenue
                                received by the Internal Revenue Service (IRS). Taxes that
                                are paid through the FTD process include:
                                    •    Income taxes withheld from employees.
                                    •    Social Security and Medicare taxes withheld from
                                         employees plus the employer’s matching portion.
                                    •    Federal unemployment taxes.
                                    •    Certain excise taxes.
                                There are specific rules regarding the timing and methods
                                for making FTD payments. For example, a business with a
                                history of significant tax liabilities may be required to
                                deposit using the IRS Electronic Federal Tax Payment
                                System (EFTPS).1 Also, the timing of the required deposit
                                is generally based on the business’ past and present tax
                                liabilities.
                                If payments are not made timely or correctly, the IRS
                                imposes FTD penalties.2 Penalties for untimely payments
                                are assessed on a sliding scale based on the amount of time
                                the payments are late. Penalties for payments made
                                incorrectly, such as including a payment with a tax return
                                when deposits are required or not making required
                                electronic deposits, are also imposed.
                                These rules are considered by many to be complex and
                                confusing. The IRS Taxpayer Advocate Service (TAS)
                                stated in its 2003 Annual Report:
                                    There is a significant problem in the administration
                                    of the FTD penalty. A substantial number of
                                    penalties assessed under IRC [Internal Revenue
                                    Code] section 6656 are abated. Current IRS
                                    practices result in both the IRS and taxpayers
                                    expending valuable time and resources in

                                1
                                  Close to 96 percent of the dollars collected for employment taxes are
                                received via the EFTPS.
                                2
                                  See Appendix V for details regarding penalty assessments.
                                                                                                 Page 1
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments

                            negotiating requests for abatement of the FTD
                            penalty. Further, taxpayer confusion about Federal
                            tax reporting can lead to penalties.
                        This Report also noted that, the higher a penalty amount, the
                        more likely it was to be abated. The Report indicated that,
                        of $4.9 billion in FTD penalties assessed in 2003, nearly
                        $3 billion was abated. The TAS 2002 Annual Report also
                        cited concerns about difficulties taxpayers have with rules
                        relating to when deposits must be made.
                        We initiated this review to determine whether actions
                        undertaken by the IRS were effectively addressing issues
                        raised by the TAS, as well as addressing other FTD
                        compliance issues. We performed computer analyses of
                        taxpayer accounts with FTD penalties assessed in Tax
                        Year (TY) 2003 on the IRS Business Master File (BMF).3
                        Our preliminary analysis identified over 1.4 million returns
                        with FTD penalties assessed totaling $3.4 billion, with the
                        Employer’s Quarterly Federal Tax Return (Form 941)
                        accounting for 97 percent of all returns with penalties and
                        92 percent of the penalty dollars assessed. Because of this,
                        we limited our detailed review to Forms 941.
                        This review was performed from September 2004 through
                        June 2005 at the Ogden, Utah, and Fresno, California,
                        Campuses4 using tax return information filed nationwide.
                        The audit was conducted in accordance with Government
                        Auditing Standards. Detailed information on our audit
                        objectives, scope, and methodology is presented in
                        Appendix I. Major contributors to the report are listed in
                        Appendix II.




                        3
                          The IRS database that consists of Federal tax-related transactions and
                        accounts for businesses. These include employment taxes, income taxes
                        on businesses, and excise taxes.
                        4
                          The campuses are the data processing arm of the IRS. They process
                        paper and electronic submissions, correct errors, and forward data to the
                        Computing Centers for analysis and posting to taxpayer accounts.
                                                                                         Page 2
          Federal Tax Deposit Penalties Have Been Significantly Reduced, but
         Additional Steps Could Further Reduce Avoidable Penalty Assessments

                                 The number of FTD penalties assessed and penalties abated
The Number and Dollar
                                 has declined significantly. IRS Statistics of Income (SOI)
Amounts of Federal Tax Deposit
                                 Division data show that, between Fiscal Years (FY) 2000
Penalties Assessed and
                                 and 2004, the number of employment tax-related FTD
Subsequently Abated Have
                                 penalties decreased each year, from 4.2 million to
Declined Significantly
                                 2.3 million. The number of penalties abated stayed about
                                 the same as a percentage of the total, approximately
                                 22 percent.
                                   Figure 1: Total Number of FTD Penalties Assessed and Abated


                                                          Fiscal Years 2000 - 2004
                                                          (Penalties in thousands)
                                       5,000      4,210

                                       4,000               3,500

                                       3,000                       2,595
                                                                           2,409      2,314
                                       2,000
                                                 903
                                       1,000              799
                                                                   605
                                                                           572
                                                                                     537
                                           0                                                   Assessed
                                               FY 00 FY 01                                    Abated
                                                           FY 02      FY 03
                                                                                 FY 04


                                  Source: IRS SOI Division.

                                 The dollar amounts of these assessed penalties also
                                 decreased significantly, from $5.7 billion to $3.7 billion.
                                 The dollars abated over that time averaged approximately
                                 60 percent.




                                                                                                    Page 3
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments

                              Figure 2: Total FTD Penalty Dollars Assessed and Abated


                                                    Fiscal Years 2000 - 2004
                                                         ($ in millions)
                                            5,759
                                6,000                5,043 4,869
                                5,000                               4,675

                                4,000                                          3,722
                                          2,677     3,201 3,042     3,247
                                 3,000
                                 2,000                                         2,271

                                 1,000
                                     0                                                  Assessed
                                         FY 00 FY 01                                   Abated
                                                     FY 02      FY 03
                                                                         FY 04

                            Source: IRS SOI Division.

                        We conducted a computer analysis of IRS tax return records
                        and found that, of the 23.6 million TY 2003 Forms 941
                        filed, 1.43 million (6.1 percent) were assessed FTD
                        penalties. Our numbers are lower than those in the SOI
                        Division statistics because we included only Forms 941 and
                        because we looked at each quarterly tax return in total and
                        not as individual assessment and abatement transactions.
                        For example, one return can have multiple assessments and
                        abatements caused by changes to returns or by misapplied
                        payments being located.
                        Although FTD penalties assessed and abated have declined
                        significantly, approximately 1 in 16 Forms 941 filed is still
                        assessed an FTD penalty.5 We found the majority of
                        penalties assessed and then abated were caused by taxpayer
                        errors or omissions. This represents a challenge for both the
                        IRS and business taxpayers.




                        5
                         We discussed our results with the TAS, which applauded the IRS’
                        efforts but expressed concern that there was no decline in the number of
                        penalties abated as a percentage of penalties assessed and that the dollar
                        amount of penalties abated stayed above 60 percent of the total.
                                                                                             Page 4
          Federal Tax Deposit Penalties Have Been Significantly Reduced, but
         Additional Steps Could Further Reduce Avoidable Penalty Assessments

                                 In general, a business that has payroll taxes of $2,500 or
The Internal Revenue Service
                                 more in a quarter is required to make monthly FTD
Has Implemented Programs to
                                 payments (or deposits), due the 15th of each succeeding
Help Reduce Deposit Penalties
                                 month. As a business grows and its employment tax
for Taxpayers Having Changes
                                 liability increases, it may be required to start making what
in Their Deposit Requirements
                                 are referred to as semi-weekly deposits. Depending on the
                                 day of the week the tax liability is incurred, semi-weekly
                                 deposits are made on the subsequent Wednesday or Friday.
                                 The rules for these deposit requirements can be confusing.
                                 To help taxpayers make the change in deposit requirements,
                                 the IRS has implemented several steps to inform and
                                 educate them.
                                 Before the start of a new tax year, taxpayers that have to
                                 change from monthly to semi-weekly deposits receive a
                                 Computer Paragraph (CP) 136 Notice informing them of
                                 their deposit requirement changes.6 This Notice includes
                                 details regarding how the determination was made and
                                 provides instructions on how to make timely deposits.
                                 The IRS Office of Penalties and Interest recently introduced
                                 a second notice that is sent to taxpayers as soon as it
                                 becomes apparent they may still be making monthly
                                 deposits instead of required semi-weekly deposits. The
                                 notice is sent after the first month of the new period is
                                 reviewed and is referred to as the early intervention notice
                                 (CP 236 Notice).7 The IRS has also implemented an
                                 automatic waiver of the penalty (communicated by a
                                 CP 235 Notice) for the first quarter of the deposit
                                 requirement change if taxpayers do not meet the new
                                 deposit requirements.8 With each notice, the IRS includes
                                 the rules and instructions regarding the taxpayer’s new
                                 deposit requirements.




                                 6
                                   Computer-generated notices and letters of inquiry are mailed to
                                 taxpayers in connection with tax returns. A CP 136 Notice is the
                                 Annual Notification of FTD Deposit Requirements (941). Taxpayers,
                                 practitioners, and IRS employees raised some concerns to the TAS
                                 about the content of this Notice. The IRS has redesigned the Notice; the
                                 redesigned version is scheduled to go into effect in 2006.
                                 7
                                   A CP 236 Notice is a Reminder to Deposit Semi-weekly.
                                 8
                                   A CP 235 Notice is a Notice of Penalty Waiver Due to the Change in
                                 the Deposit Requirement.
                                                                                                 Page 5
          Federal Tax Deposit Penalties Have Been Significantly Reduced, but
         Additional Steps Could Further Reduce Avoidable Penalty Assessments

                                  The IRS Office of Penalties and Interest believed the
                                  additional notice (CP 236 Notice) would reduce the first and
                                  second quarter penalties from TY 2003 to TY 2004. Our
                                  computer analysis of these tax periods showed penalties
                                  assessed were, in fact, down approximately 16 percent and
                                  dollars assessed were down almost 25 percent. There were
                                  about 1.5 percent fewer returns filed in the 2004 period, but
                                  the numbers are still adequate to show the intended effect
                                  was achieved.
                                  The IRS implemented the EFTPS to improve the accuracy
The Internal Revenue Service Is
                                  of deposit information and to make it easier for taxpayers to
Implementing a One-Time
                                  make deposits. Electronic collections increased from
Penalty Abatement for
                                  $1.15 trillion in 1998 to $1.6 trillion in 2004. Currently,
Taxpayers Who Voluntarily Use
                                  almost 96 percent of employment taxes are paid by
the Electronic Federal Tax
                                  electronic funds transfers. Electronic deposits help to
Payment System for 1 Year
                                  significantly reduce deposit errors and errors in filling out
                                  and processing paper FTD coupons.
                                  The IRS, through its Taxpayer Education and
                                  Communication Office, is marketing the EFTPS through a
                                  new incentive program. Beginning with TY 2005, the IRS
                                  will provide a one-time FTD penalty abatement for
                                  taxpayers that voluntarily enlist in the EFTPS program and
                                  use it successfully for 1 full year.
                                  The TAS Annual Reports cited the high rates of FTD
Taxpayers Responsible for
                                  penalty assessments and abatements as an issue involving
Making Timely Payments
                                  the complexity of the FTD rules. We agree that these rules
Failed to Do So
                                  are complex and, during initial reading, can be hard to
                                  understand (see Appendix VI). This complexity most likely
                                  contributes to the number of penalties assessed; however,
                                  our review of a judgmental sample of 194 penalties assessed
                                  on TY 2003 Forms 941 indicated the reasons for assessment
                                  of FTD penalties were not just instruction or complexity
                                  issues. We determined 183 of those taxpayers had either a
                                  history of paying correctly or other indicators that they
                                  knew the deposit requirements, such as prior waivers and
                                  reasonable cause abatements of the penalty. Most of these
                                  taxpayers just paid late or paid with the returns instead of
                                  making timely and required FTD deposits.
                                  From our sample of 194 penalties, 10 cases did involve
                                  changes in deposit requirements. However, the early
                                  notification program mentioned above had fully informed
                                                                                         Page 6
          Federal Tax Deposit Penalties Have Been Significantly Reduced, but
         Additional Steps Could Further Reduce Avoidable Penalty Assessments

                                 these taxpayers of their deposit requirements. Taxpayers in
                                 all 10 cases had received the automatic first quarter waiver
                                 of the FTD penalty, and 6 of those had received an
                                 additional reasonable cause abatement of penalty for the
                                 second quarter.
                                 The IRS has committed to reduce taxpayer burden and
The Internal Revenue Service
                                 improve compliance related to FTD penalties and has
Should Review Potential
                                 implemented several steps mentioned previously. We
Large-Dollar Federal Tax
                                 identified additional steps the IRS could take to further
Deposit Penalties Before
                                 accomplish this objective. The first step, discussed here,
Making Actual Assessments
                                 involves large-dollar FTD penalty assessments. (A second
                                 step is discussed on page 10.)
                                 We stratified the FTD penalties assessed on Forms 941
                                 during TY 2003 and reviewed the characteristics of the
                                 2,000 largest penalty transactions.9 These penalties totaled
                                 almost $1.12 billion and ranged from nearly $102,000 to
                                 over $32 million. Approximately $1.05 billion (94 percent)
                                 of that amount had been abated as of April 26, 2005. This
                                 94 percent reversal rate supports the TAS 2003 Annual
                                 Report contention that large-dollar penalties are much more
                                 likely to be reversed.
                                 The IRS currently has a program in place that helps avoid
                                 assessment of unnecessary FTD penalties on certain returns
                                 that do not have valid liability information included with
                                 them. Penalties on these returns would normally be
                                 computed by averaging the taxpayers’ liabilities over the
                                 quarter. Instead of making the averaged penalty assessment,
                                 the IRS, for cases meeting its criteria, issues a
                                 CP 207 Notice10 to the taxpayers asking for additional
                                 information to help avoid the penalty assessment. However,



                                 9
                                   These penalties were predominately assessed to taxpayers in the Large
                                 and Mid-Size Business (LMSB) and the Tax Exempt and Government
                                 Entities (TE/GE) Divisions. While approximately 92 percent of all
                                 assessments involved taxpayers in the Small Business/Self-Employed
                                 (SB/SE) Division, only 14 percent of these large assessments involved
                                 SB/SE Division taxpayers, while 48 and 38 percent, respectively,
                                 involved LMSB and TE/GE Division taxpayers.
                                 10
                                    A CP 207 Notice gives notification of impending FTD penalty
                                 assessments to be made without schedule of liabilities.

                                                                                                 Page 7
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments

                        the IRS limited the criteria for this program and did not
                        address all the larger-dollar cases.
                        The IRS Office of Penalties and Interest has developed and
                        forwarded two Requests for Information Services to the IRS
                        Chief Information Officer to expand this program to include
                        significantly more of the averaged penalties. These steps
                        should significantly reduce the large penalty assessments
                        and abatements. We believe an additional step could further
                        reduce large-dollar assessments and abatements.
                        Since approximately 26 percent of the 2,000 largest-dollar
                        penalty cases we reviewed did not meet the criteria for the
                        CP 207 Notice program, but instead involved penalties
                        computed based on apparently valid information filed with
                        the returns, the IRS should consider developing a notice
                        similar to the CP 207 Notice that will apply to these cases.
                        The intent would be to delay actual assessment on these
                        cases and make contact with the taxpayers on large-dollar
                        penalties that are not based on the averaging method to
                        which the CP 207 Notice applies.
                        Criteria for this notice would have to be based on research
                        of the characteristics of these cases including the dollar
                        amount of the penalties and the probability that the penalties
                        would be reversed. For example, criteria for issuing the
                        notice could include dollar amounts representing a
                        75 percent probability of being reversed.
                        Our review was limited to penalties of nearly $102,000 and
                        higher, which represented the top 2,000. Again, 94 percent
                        of the total dollars assessed on our 2,000 penalty
                        transactions were subsequently abated. Depending on
                        resource availability, the IRS could set its criteria for issuing
                        this notice significantly lower than the $102,000, which was
                        the lowest penalty dollar amount in our strata.
                        By not assessing penalties over a certain dollar amount
                        (which the IRS would set) before contacting the taxpayers
                        directly to determine whether the proposed penalties are
                        correct, the IRS could provide a more proactive and
                        customer-oriented method to resolve these penalties. Such a
                        program could also start the process to correct the probable
                        problem earlier. We looked at the time it took to resolve
                        100 of the 2,000 cases and found the average time from the

                                                                                 Page 8
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments

                        penalty assessment date to the abatement date was
                        13 weeks.
                        In discussions with us, the TAS agreed with the concept of
                        expanding the use of the CP 207 Notice and developing a
                        similar notice to address other large-dollar FTD penalties
                        but expressed the opinion that the IRS needs to make some
                        improvements to the CP 207 Notice and related IRS
                        processing procedures before expanding the program.

                        Recommendations

                        The Director, Office of Penalties and Interest, Small
                        Business/Self-Employed (SB/SE) Division, should
                        coordinate with appropriate staff from the offices of the
                        Commissioners, Large and Mid-Size Business (LMSB)
                        Division, SB/SE Division, and Wage and Investment (W&I)
                        Division, to:
                        1. Address the TAS’ concerns with the CP 207 Notice and
                           related processing issues.
                        Management’s Response: The IRS has enhanced the
                        programming for the CP 207 Notice generation process and
                        developed a new CP 207L Notice for proposed penalties of
                        $100,000 or more. The Director, Office of Penalties and
                        Interest, SB/SE Division, and the TAS plan to review the
                        effectiveness of the revised CP 207 Notice and new
                        CP 207L Notice in mid-2007 when they will have 4 quarters
                        of posted information available.
                        2. Ensure the steps proposed by the IRS Office of Penalties
                           and Interest to expand the CP 207 Notice reviews are
                           implemented.
                        Management’s Response: The Director, Exam Policy,
                        SB/SE Division, has obtained approval of Requests for
                        Information Services that are on schedule to implement the
                        expanded CP 207 Notices for generation on first quarter
                        2006 Forms 941.
                        3. Commission a research project with the objective of
                           identifying other large FTD penalties that are likely to
                           be reversed and developing a notice similar to the
                           CP 207 Notice and implement procedures to contact the
                           taxpayers and resolve the proposed penalties prior to
                                                                             Page 9
          Federal Tax Deposit Penalties Have Been Significantly Reduced, but
         Additional Steps Could Further Reduce Avoidable Penalty Assessments

                                    assessment. Criteria for this notice should be evaluated
                                    based on availability of resources and the probability
                                    that the penalty would ultimately be reversed.
                                 Management’s Response: The Large Corporation Units in
                                 Ogden, Utah, and Cincinnati, Ohio, will review
                                 CP 207L Notices and make taxpayer contacts prior to
                                 mailing. The Director, Exam Policy, SB/SE Division, will
                                 assess the benefit of reducing the notice dollar threshold
                                 based on the success of this CP 207L Notice process and the
                                 resources used to work this Notice.
                                 Office of Audit Comment: Management’s response
                                 addresses cases meeting the criteria for the CP 207 Notice
                                 (no valid liability information included on the return) but
                                 does not address cases based on apparently valid
                                 information filed with the returns, as recommended. On
                                 August 12, 2005, the Office of Penalties and Interest
                                 requested a copy of the data reviewed in our audit and will
                                 study those data for characteristics of other cases that may
                                 benefit from a notice similar to the CP 207 Notice. In
                                 addition, as mentioned earlier, the Office of Penalties and
                                 Interest and the TAS plan to review the effectiveness of the
                                 revised CP 207 Notice and new CP 207L Notice in
                                 mid-2007 when they will have 4 quarters of posted
                                 information available. Therefore, we concur with the
                                 corrective action proposed by the IRS.
                                 Many of the taxpayers included in our sample of
The Internal Revenue Service
                                 194 penalty cases (discussed previously) had multiple FTD
Should Determine Why Certain
                                 penalties. For these cases, we reviewed the 6 quarters
Taxpayers Repeatedly Incur
                                 between January 1, 2003, and June 30, 2004, and found that
Federal Tax Deposit Penalties
                                 128 (66 percent) had penalties assessed in 3 or more of these
and Take Steps to Change This
                                 6 quarters. Because of the high rate of recurrence, we
Trend
                                 performed another computer analysis of the BMF to
                                 determine how many taxpayers had multiple FTD penalties
                                 assessed on TYs 2001, 2002, and 2003 quarterly returns.
                                 We found that, in the 12 quarters of those years,
                                 908,000 taxpayers had more than 1 FTD penalty assessed.
                                 More than 87,000 taxpayers had penalties assessed in 9 or
                                 more quarters (913,915 separate penalty assessments).
                                 We performed an analysis of the accounts of
                                 20,893 taxpayers that had penalties assessed in all
                                 12 quarters and found a large percentage of these taxpayers
                                                                                      Page 10
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments

                        appeared to treat the penalty as a cost of doing business
                        and/or did not fully understand the cause and impact of the
                        penalty. We reviewed tax account information for a
                        statistically valid sample of 102 of these 20,893 taxpayers
                        and found that approximately 60 percent paid these
                        penalties each quarter. The penalties assessed to these
                        taxpayers averaged $1,805 per quarter or $21,659 during the
                        3-year period.11
                        Part of the IRS’ mission is to help taxpayers understand
                        their tax responsibilities. The IRS currently does not help
                        taxpayers that continue to be assessed and pay FTD
                        penalties determine why they continually incur these
                        penalties and what the taxpayers could do to avoid them.
                        The IRS could use our computer-identified list of taxpayers
                        or develop different criteria to identify taxpayers that pay
                        the FTD penalty repeatedly. The IRS should consider either
                        a direct contact program or a mailed survey to identify
                        education or compliance areas that could be stressed to
                        reduce this recidivism rate. By developing a strategy to
                        reduce or eliminate the assessment of repeat penalties for
                        this taxpaying segment, the IRS could save these taxpayers
                        more than $270 million over a 3-year period.

                        Recommendation

                        4. The Director, Office of Penalties and Interest, SB/SE
                           Division, should coordinate with appropriate staff from
                           the offices of the Commissioners, LMSB Division,
                           SB/SE Division, W&I Division, and the TAS to
                           commission a research project to identify taxpayers that
                           incur and timely pay FTD penalties on a recurring basis
                           with the objective of determining the cause and
                           developing a strategy to reduce assessment of repeat
                           penalties for this taxpaying segment. Consideration
                           should be given to contacting these taxpayers directly or
                           through a notice or questionnaire.
                        Management’s Response: The Director, Office of Penalties
                        and Interest, SB/SE Division, has requested the data

                        11
                           The other 40 percent involved taxpayers that had not paid their tax
                        liabilities and had liens or other collection activity being enforced.
                                                                                        Page 11
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments

                        reviewed in this audit and, in September 2005, will
                        commission a research project to identify taxpayers that
                        incur and timely pay FTD penalties on a recurring basis,
                        determine the cause(s) of this behavior, and develop a
                        strategy to reduce repeat penalty assessments for this
                        taxpaying segment.




                                                                            Page 12
           Federal Tax Deposit Penalties Have Been Significantly Reduced, but
          Additional Steps Could Further Reduce Avoidable Penalty Assessments

                                                                                                   Appendix I


                         Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether current studies and workgroups
were effectively addressing Federal Tax Deposit (FTD) compliance and issues raised by the
Internal Revenue Service (IRS) Taxpayer Advocate Service (TAS), whether recent changes were
effective in improving FTD compliance, and whether other changes to the FTD penalty program
could further improve compliance or reduce taxpayer burden. To accomplish these objectives,
we:
I.      Determined whether current studies and workgroups were effectively addressing FTD
        compliance.
        A. Reviewed portions of the TAS 2002 and 2003 Annual Reports related to FTD penalty
           issues and the IRS Office of Penalties and Interest response to those reports to
           evaluate the extent of the reviews and complexity of raised issues.
        B. Reviewed research projects and employment tax literature compilations to identify
           studies being conducted and issues raised and/or resolved by those studies. This
           included the IRS Office of Penalties and Interest Final Report dated
           October 16, 1998.
        C. Reviewed the Office of Penalties and Interest Post Notice Review Compliance
           Initiatives and looked at work being conducted by the Taxpayer Advocacy Panel on
           an annual Employment Tax Return initiative.
II.     Determined whether there were areas of the FTD penalty program that could be enhanced
        to improve compliance or reduce taxpayer burden.
        A. Obtained a computer database of Business Master File1 accounts that had FTD
           penalty assessments (and any related abatements) made between January 1, 2001, and
           June 30, 2004.
        B. Selected and reviewed, from 1.4 million taxpayer accounts having FTD penalties
           assessed during 2003, a judgmental2 sample of 194 (we selected 202 penalty
           transaction codes at random and eliminated 8 that were related to the Computer
           Paragraph (CP) 207 Notice3 and were for $0.00) to determine the reasons for
           assessments and any subsequent abatements, to identify sample characteristics and


1
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
2
  We used a judgmental sample because we did not expect to make any projections from our sample results.
3
  Computer-generated notices and letters of inquiry are mailed to taxpayers in connection with tax returns. A
CP 207 Notice gives notification of impending FTD penalty assessments to be made without schedule of liabilities.
                                                                                                         Page 13
              Federal Tax Deposit Penalties Have Been Significantly Reduced, but
             Additional Steps Could Further Reduce Avoidable Penalty Assessments

                trends, and to determine any possible actions that could reduce burden or prevent
                unnecessary assessments.
           C. Performed various data analyses to verify or refute assumptions regarding taxpayer
              categories and related FTD penalty trends. Special analyses included a review of
              taxpayers with multiple penalties and a review of the 2,000 largest-dollar assessments
              and subsequent abatements related to those large-dollar assessments. As part of this
              analysis, we selected a judgmental sample of 1004 transactions and evaluated the
              average length of time taken to abate the penalty.
           D. Performed a data analysis of taxpayers with penalties in multiple quarters. As part of
              this analysis, we selected a statistically valid sample of 1025 of the 20,893 taxpayers
              (95 percent confidence, +/- 10 percent precision range, expected occurrence rate of
              60 percent) with penalties assessed in all 12 quarters during Calendar Years 2001,
              2002, and 2003.
III.       Determined whether recent changes were effective in improving FTD compliance.
           A. Performed a computer analysis to compare the numbers and dollar amounts of FTD
              penalties assessed in the first and second quarters of 2003 with the numbers and
              dollar amounts of penalties assessed in the first and second quarters of 2004 to
              determine whether the new CP 236 Notice (intervention notice, reminder to deposit
              semi-weekly) had reduced total penalties as the IRS predicted.
           B. Reviewed the new program that allows a one-time waiver of the FTD penalty for
              taxpayers that move from paying with coupons to the Electronic Federal Tax Payment
              System (EFTPS) that starts in Tax Year 2005. We reviewed IRS publicity for this
              program as well as the Request for Information Services (RIS) developed to ensure
              proper programming and comments related to this RIS. As part of this analysis, we
              reviewed payroll tax payment trends for both the EFTPS and coupon payments for
              recent years.
IV.        Determined whether issues raised by the TAS regarding clarity of notices, forms, and
           instructions were still of concern and whether changes could be made to improve the
           FTD process.
           A. Reviewed all employment and excise tax forms and associated instructions that relate
              to FTD penalty provisions to determine clarity of instructions and possible areas for
              improvement.
           B. Reviewed general notices, such as math error and balance due notices related to
              employment and excise tax returns, to identify high-volume issues and any relevant
              trends. We also reviewed notices specific to FTD penalties that are the responsibility
              of the IRS Office of Penalties and Interest. This included a detailed review of the

4
    We used a judgmental interval sample because there was no need to project the results over the entire population.
5
    We selected a statistically valid sample so we could project our results across the entire population.
                                                                                                              Page 14
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments

 Annual Notification of FTD Deposit Requirements (CP 136 Notice), the Reminder to
 Deposit Semi-weekly (CP 236 Notice), and the Notice of Penalty Waiver Due to the
 Change in the Deposit Requirement (CP 235 Notice).




                                                                          Page 15
         Federal Tax Deposit Penalties Have Been Significantly Reduced, but
        Additional Steps Could Further Reduce Avoidable Penalty Assessments

                                                                                Appendix II


                           Major Contributors to This Report

Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate Programs)
Richard J. Dagliolo, Director
Kyle R. Andersen, Audit Manager
Greg Schmidt, Lead Auditor
Annette Bates, Senior Auditor
Debra D. Morgan, Auditor
Layne Powell, Information Technology Specialist
Dorothy Richter, Information Technology Specialist




                                                                                      Page 16
         Federal Tax Deposit Penalties Have Been Significantly Reduced, but
        Additional Steps Could Further Reduce Avoidable Penalty Assessments

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Deputy Commissioner, Wage and Investment Division SE:W
Director, Research, Small Business/Self-Employed Division SE:S:SRM:R
Director, Taxpayer Education and Communication, Small Business/Self-Employed Division
SE:S:CGL&D:T
Director, Office of Penalties and Interest, Small Business/Self-Employed Division
SE:S:C:CP:PC:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Large and Mid-Size Business Division SE:LM:CL
       Commissioner, Small Business/Self-Employed Division SE:COM
       Commissioner, Tax Exempt and Government Entities Division SE:T:CL
       Commissioner, Wage and Investment Division SE:W:S:W




                                                                                  Page 17
           Federal Tax Deposit Penalties Have Been Significantly Reduced, but
          Additional Steps Could Further Reduce Avoidable Penalty Assessments

                                                                                                   Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; $270,607,546 applicable to 12,494 taxpayer
    accounts (see page 10).
Methodology Used to Measure the Reported Benefit:
We obtained Internal Revenue Service (IRS) Business Master File1 records of
20,893 Employer’s Quarterly Federal Tax Returns (Form 941) filed for tax periods in Calendar
Years 2001 - 2003 that had Federal Tax Deposit penalties assessed on all 12 quarterly returns.
We selected a statistically valid sample of 102 of these taxpayers at a 95 percent confidence
level, an expected error rate of 60 percent, and a precision of +/- 10 percent. We found that
59.8 percent of the taxpayers in our sample consistently paid these penalties. Based on the
results of our sample, we estimate that 12,494 of the taxpayers in our population paid the
penalties in each of the 12 quarters. On average, the penalties incurred by these taxpayers over
the 3-year period totaled $21,659. By developing a strategy to reduce or eliminate assessment of
repeat penalties for this taxpaying segment, the IRS could save these taxpayers $270,607,546
(12,494 taxpayers X $21,659).2




1
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
2
  This point estimate is based on a 95 percent confidence level and a precision of +/- $38,673,569.




                                                                                                            Page 18
          Federal Tax Deposit Penalties Have Been Significantly Reduced, but
         Additional Steps Could Further Reduce Avoidable Penalty Assessments

                                                                                   Appendix V


                 Federal Tax Deposit Penalty Rules and Percentages

Failure to make timely deposit of employment taxes can result in the Federal Tax Deposit (FTD)
penalty being assessed. The penalty is based on a graduated four-tier system. The penalty
amount varies with the length of time within which the taxpayer corrects the failure to make the
required deposit. It is determined as follows:
   •   Two percent – Payment is no more than 5 days late.
   •   Five percent – Payment is more than 5 days late but no more than 15 days late.
   •   Ten percent – Payment is more than 15 days late.
   •   Fifteen percent – If the payment is not made on or before the day that is 10 days after
       the date of the first delinquency notice to the taxpayer.
In addition,
   •   Ten percent – Amounts subject to electronic deposit requirements but not deposited
       using the Electronic Federal Tax Payment System.
   •   Ten percent – Deposits made at an unauthorized financial institution, paid directly to the
       Internal Revenue Service, or paid with the tax return (when FTD deposits are required).




                                                                                          Page 19
             Federal Tax Deposit Penalties Have Been Significantly Reduced, but
            Additional Steps Could Further Reduce Avoidable Penalty Assessments

                                                                           Appendix VI


    Federal Tax Deposit Rules – Publication 15 (Circular E), Employer's Tax Guide1




1
    Rev. January 2004
                                                                                  Page 20
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments




                                                                      Page 21
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments




                                                                      Page 22
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments




                                                                      Page 23
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments




                                                                      Page 24
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments




                                                                      Page 25
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments




                                                                      Page 26
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments

                                                              Appendix VII


           Management’s Response to the Draft Report




                                                                      Page 27
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments




                                                                      Page 28
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments




                                                                      Page 29
 Federal Tax Deposit Penalties Have Been Significantly Reduced, but
Additional Steps Could Further Reduce Avoidable Penalty Assessments




                                                                      Page 30
